<html>
<title> - GLOBAL INTERNET FREEDOM: CORPORATE RESPONSIBILITY AND THE RULE OF LAW</title>
<body><pre>[Senate Hearing 110-643]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-643
 
 GLOBAL INTERNET FREEDOM: CORPORATE RESPONSIBILITY AND THE RULE OF LAW

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON HUMAN RIGHTS AND THE LAW

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2008

                               __________

                          Serial No. J-110-93

                               __________

         Printed for the use of the Committee on the Judiciary


                   U.S. GOVERNMENT PRINTING OFFICE
45-688 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
           Stephanie A. Middleton, Republican Staff Director
              Nicholas A. Rossi, Republican Chief Counsel
                                 ------                                

                Subcommittee on Human Rights and the Law

                 RICHARD J. DURBIN, Illinois, Chairman
EDWARD M. KENNEDY, Massachusetts     TOM COBURN, Oklahoma
JOSEPH R. BIDEN, Jr., Delaware       JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       LINDSEY O. GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     SAM BROWNBACK, Kansas
                      Joseph Zogby, Chief Counsel
                 Brooke Bacak, Republican Chief Counsel
                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coburn, Hon. Tom, a U.S. Senator from the State of Oklahoma......     4
    prepared statement...........................................    90
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................     1
    prepared statement...........................................    95

                               WITNESSES

Chandler, Mark, Senior Vice President, General Counsel and 
  Secretary, Cisco Systems, Inc., San Jose, California...........    12
Ganesan, Arvind, Director, Business and Human Rights Program, 
  Human Rights Watch, Washington, D.C............................    10
Samway, Michael, Vice President and General Counsel, Yahoo! Inc., 
  Miami, Florida.................................................     8
Wong, Nicole, Deputy General Counsel, Google Inc., Mountain View, 
  California.....................................................     6
Zhou, Shiyu, Deputy Director, Global Internet Freedom Consortium, 
  Bethesda, Maryland.............................................    15

                         QUESTIONS AND ANSWERS

Responses of Mark Chandler to questions submitted by Senators 
  Durbin Coburn..................................................    36
Responses of Arvind Ganesan to questions submitted by Senator 
  Coburn.........................................................    47
Responses of Michael Samway to questions submitted by Senators 
  Durbin and Coburn..............................................    50
Responses of Nicole Wong to questions submitted by Senators 
  Durbin, Brownback and Coburn...................................    63
Responses of Shiyu Zhou to questions submitted by Senator Coburn.    81

                       SUBMISSIONS FOR THE RECORD

Amnesty International USA, New York, New York, statement.........    83
Chandler, Mark, Senior Vice President, General Counsel and 
  Secretary, Cisco Systems, Inc., San Jose, California, statement    86
Computer & Communications Industry Association, Washington, D.C., 
  statement......................................................    92
Ganesan, Arvind, Director, Business and Human Rights Program, 
  Human Rights Watch, Washington, D.C., statement................    98
Harris, Leslie, President/CEO, Center for Democracy & Technology, 
  Washington, D.C., statement....................................   107
New York Times, November 10, 2008, article.......................   117
Palfrey, John G., Jr., Clinical Professor of Law & Executive 
  Director, and Colin Maclay, Managing Director, Berkman Center 
  for Internet & Society, Harvard Law School, Cambridge, 
  Massachusetts, statement.......................................   119
Reporters Without Borders, Lucie Morillon, Director and Clothilde 
  Le Coz, Internet Freedom Director, Washington, D.C., statement.   128
Samway, Michael, Vice President and General Counsel, Yahoo! Inc., 
  Miami, Florida, statement......................................   138
Wong, Nicole, Deputy General Counsel, Google Inc., Mountain View, 
  California, statement..........................................   141
World Organization for Human Rights USA, Washington, D.C., 
  statement......................................................   152
Zhou, Shiyu, Deputy Director, Global Internet Freedom Consortium, 
  Bethesda, Maryland, statements.................................   157


 GLOBAL INTERNET FREEDOM: CORPORATE RESPONSIBILITY AND THE RULE OF LAW

                              ----------                              


                         TUESDAY, MAY 20, 2008

                                       U.S. Senate,
                  Subcommittee on Human Rights and the Law,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:07 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Richard J. 
Durbin, Chairman of the Subcommittee, presiding.
    Present: Senators Durbin, Cardin, Whitehouse, and Coburn.

  OPENING STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR 
                   FROM THE STATE OF ILLINOIS

    Chairman Durbin. The Judiciary Committee's Subcommittee on 
Human Rights and the Law will come to order. I notice the 
witnesses are still standing, so I will ask at this point if 
they will please raise their right hand and repeat after me. Do 
you affirm that the testimony you are about to give before the 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you God?
    Ms. Wong. I do.
    Mr. Samway. I do.
    Mr. Ganesan. I do.
    Mr. Chandler. I do.
    Mr. Zhou. I do.
    Chairman Durbin. Thank you. Let the record reflect that the 
witnesses have responded in the affirmative. Please be seated.
    The subject of this hearing is ``Global Internet Freedom: 
Corporate Responsibility and the Rule of Law.'' After a few 
opening remarks, I will recognize my colleague Senator Coburn, 
the Subcommittee's Ranking Member, for an opening statement, 
then turn to our witnesses.
    I just might say that this morning I visited the Newseum 
for the first time, as part of a taping of a cable show for 
Illinois. It is a very impressive place to visit. And I could 
not think of a more timely visit in light of this hearing. They 
have on display there a map of the world and a grading system 
as to which countries in the world are most open and free when 
it comes to speech and press and the basic freedoms which we 
have enshrined in our Constitution. And, sadly, too many are 
found deficient--even our own country, in many respects, 
deficient in aspiring to the values that are part of our credo 
as Americans. This was a perfect visit in terms of what we are 
doing today in talking about the question of Internet freedom 
and the responsibility of American companies around the world.
    There is a tendency to view human rights as just a foreign 
policy issue, but in this Subcommittee we have learned that is 
an inaccurate perception. Our world is growing smaller every 
day, a process accelerated by the Internet revolution. We have 
seen that human rights violations in other countries can affect 
us. To take one example, this Subcommittee has discovered that 
over 1,000 war criminals from other countries have found safe 
haven in the United States of America. On the other side, the 
actions of the U.S. Government and U.S. companies affect human 
rights in other countries.
    In future hearings, we are going to explore the impact of 
corporate America on other fundamental human rights, but today 
we are going to focus specifically on the role of U.S. 
technology companies in Internet freedom around the world.
    In 1791, the First Amendment to the Constitution was 
ratified, enshrining freedom of speech as the first fundamental 
right of all Americans. The First Amendment became an 
inspiration not only to Americans but to everyone around the 
world and inspired many to throw off the yoke of oppression.
    The year 2008 is the 60th anniversary of the Universal 
Declaration of Human Rights. After World War II, under Eleanor 
Roosevelt's leadership, the United States spearheaded the 
ratification of the Universal Declaration, which recognized 
freedom of expression as a fundamental right of all people. The 
advent of the Internet has allowed billions of people to 
exercise this right more fully.
    But the Internet is not free for everyone. Contrary to 
early predictions that the Internet could not be controlled, 
many countries censor the Internet and jail online dissidents. 
In Egypt, blogger Kareem Amer is serving a 4-year prison term 
for entries on his blog relating to Islam and President Hosni 
Mubarak. Now, just last month, 27-year-old Esra Abdel-Fattah 
was arrested after forming a group online to protest the high 
price of food in Egypt. She was released only in return for her 
promise to give up Internet activism.
    In Cuba, citizens can be jailed for using the Internet for 
counterrevolutionary purposes. Cuban telecommunications 
Minister Ramiro Valdes said on February 27, 2007, that the 
Internet was a ``tool for global extermination.''
    In Burma last fall, the military junta imposed a blackout 
on the Internet when images of Buddhist monks protesting the 
military's rule started appearing online.
    And in China, dozens of bloggers have been jailed, 
including Hu Jia, who was recently sentenced to 3\1/2\ years in 
prison based in part on online essays he wrote criticizing the 
Chinese Government's human rights record. Three and a half 
years in prison simply for exercising his freedom of 
expression.
    Over 30,000 Internet police monitor the Web in China, and 
the so-called Great Firewall of China prevents Chinese citizens 
from receiving accurate information about China's human rights 
record in Tibet and Darfur, among other subjects. The so-called 
Internet cops that are pictured here, these little cartoonish 
figures, pop up periodically to remind users in China that 
their Internet usage is being monitored by the government.
    In today's hearing, we will examine the role that American 
companies play in Internet censorship. At the outset, let me 
acknowledge the obvious: This is not a black- and-white issue, 
and it is not an easy issue. U.S. technology companies face 
difficult challenges when dealing with repressive governments, 
but these companies also have a moral obligation to protect 
freedom of expression.
    You will see in the opening statements of virtually every 
witness here a statement stating that their companies, their 
corporate philosophies, are in favor of freedom of expression. 
I think that is good and right, but it really creates a 
standard for them and for us. And there is no question that 
some have fallen short of the mark on more than one occasion. 
In fact, perhaps it is time for Congress to consider converting 
this moral obligation into a legal obligation.
    Human rights groups have accused Cisco of providing network 
equipment that forms the backbone of the Great Firewall of 
China and is used by other repressive countries to censor 
Internet and monitor users. I want to note that last week the 
Subcommittee received some troubling information about Cisco's 
activities in China, which has been reported in the press, and 
I have had a meeting with Cisco, Mr. Chandler and others, to 
discuss it. This information has been shared with them and will 
be discussed further today.
    Software produced by American companies such as Fortinet 
and Secure Computing has reportedly been used to censor the 
Internet in Burma and Iran, respectively. Google received 
significant public criticism when it decided to launch 
Google.cn, a China-specific search site that removes results to 
conform with China's censorship policies. We will show you some 
illustrations later in the hearing. And Microsoft removes the 
blogs of Internet activists from their blogging service in 
response to requests from repressive governments.
    Not all the news is negative. Around the world, Internet 
activists are breaking down the walls of censorship. In Cuba, 
for example, students use flash drives, digital cameras, and 
clandestine Internet connections to post blog entries and 
download information. Yoani Sanchez, a Cuban blogger, poses as 
a tourist at Internet cafes to make posts on her blog. She was 
recently named one of Time Magazine's Most Influential People 
of 2008. Activists like Dr. Shiyu Zhou have developed 
technology that allows users to break through firewalls and 
avoid censorship.
    Three of our witnesses--Yahoo!, Google, and Human Rights 
Watch--have been working for almost 2 years on developing a 
voluntary code of conduct for Internet companies that do 
business in repressive countries. I look forward to hearing 
about the status of this long-awaited initiative, and I 
challenge all here who are interested in the subject no longer 
to tolerate the delay in reaching this agreement.
    As access to Internet continues to spread and change the 
way we inform and express ourselves, our Government and 
American companies will be challenged to promote free speech 
and not to facilitate repression. With our collective efforts, 
perhaps someday the Internet can fulfill its promise of 
empowering all people to exercise their right to seek 
information and express their opinions freely.
    [The prepared statement of Senator Durbin appears as a 
submission for the record.]
    I want to recognize Senator Coburn for an opening 
statement.

STATEMENT OF HON. TOM COBURN, A U.S. SENATOR FROM THE STATE OF 
                            OKLAHOMA

    Senator Coburn. Thank you, Senator Durbin. Again, another 
compelling hearing for this Subcommittee on Human Rights and 
the Law.
    Senator Durbin and his staff are to be commended for their 
dedication of the issues of such heavy import. This relatively 
new Subcommittee has already proven to be quite a force, 
introducing bipartisan legislation to address genocide, human 
trafficking, and child soldiers. These bills are already well 
on their way to bringing justice to victims of the most 
egregious human rights abuses.
    The Genocide Accountability Act has already been signed 
into law. My congratulations. The Child Soldiers Accountability 
Act passed the Senate by unanimous consent. And the Trafficking 
in Persons Accountability Act awaits consideration by the full 
Senate after receiving unanimous approval from the Senate 
Judiciary Committee.
    This kind of progress is unusual in today's partisan 
atmosphere, but Senator Durbin and his staff have ensured 
success by reaching across the aisle to work together to tackle 
very complex and critical issues for freedom throughout the 
world. Under his leadership, we have approached every issue 
objectively, studying issues closely and talking to experts at 
both hearings and behind the scenes. In doing so, we have 
developed reasonable proposals to close gaps in current law 
that have inadvertently allowed the United States to serve as a 
safe haven for human rights perpetrators.
    Today, we address the issue of Internet freedom. Nearly 1.5 
billion people now use the Internet, 220 million of which 
reside in China. This number has more than doubled since early 
2006 when the House of Representatives first held a hearing on 
this issue. The growth is explosive and, amazingly, China now 
has the largest Internet population in the world. The 
introduction and widespread use of this technology in countries 
like China is one of the most exciting developments of our day. 
Information is power. That information can become freedom, and 
the more that Chinese citizens have access to that information, 
the more open their society will inevitably be.
    Of course, nobody understands the power of the Internet 
better than the governments who seek to repress their 
societies. I have already mentioned China, but that country is 
not the only government with such pernicious censorship. 
According to Reporters Without Borders, at least 62 cyber 
dissidents are currently imprisoned worldwide, with more than 
2,600 websites, blogs, or discussion forums which were closed 
and made inaccessible in 2007 alone. The group has identified 
countries where Internet freedoms are restricted, which are 
China, Cuba, North Korea, Belarus, Burma, Egypt, Ethiopia, 
Iran, Saudi Arabia, Syria, Tunisia, Turkmenistan, Uzbekistan, 
Vietnam, and Zimbabwe. It named 11 additional countries as 
``countries under watch.'' It is my hope that today's hearing 
will shed light on how pervasive Internet censorship has become 
around the world.
    This is not the first time Congress has addressed the issue 
of Internet freedom. The House of Representatives, led by 
Congressman Chris Smith and the late Congressman Tom Lantos, 
held two recent hearings and have thereby created a thorough 
record for our benefit. I would like to thank my colleagues for 
their dedication to the issue and the detailed groundwork that 
they have already laid.
    The House hearings explored and established the factual 
record surrounding the relatively short history of American 
companies that have provided Internet service in countries 
where censorship is required by law. Those hearings examined in 
detail the steps and missteps of the companies as they began 
doing business in unfamiliar territory.
    Mr. Chairman, it is my hope today that we will tackle the 
challenge of discussing possible solutions for the problems 
that face these companies. While understanding that the past is 
an important aspect of shaping solutions for the future, it is 
my hope that we can avoid relitigating the same issues that 
have already been discussed at length. Our panel of witnesses, 
which includes the industry experts and human rights advocates, 
should be able to explain the progress that has been made since 
the last hearing on this issue and answer questions that will 
help us better understanding the challenge of preserving 
Internet freedom around the world.
    While the focus on this hearing is worldwide, it is also my 
hope that while the eyes of the world are on China in response 
to the massive earthquake and also there is some anticipation 
of the Summer Olympics, China's eyes are also on us as we 
criticize government censorship of the Internet and call for 
more freedom for their citizens. I view this time as an 
opportunity to show the people of China what freedom looks like 
and also to let the Chinese Government know that its actions 
have not gone unnoticed. This is just another opportunity to 
lead by example, which is what I hope American Internet 
companies doing business in places like China will also choose 
to do. Their presence in these places is important, and it is 
crucial that they operate on the side of those seeking freedom 
rather than oppression.
    [The prepared statement of Senator Coburn appears as a 
submission for the record.]
    I thank the Chairman, and I look forward to the witnesses' 
testimony.
    Chairman Durbin. Thank you, Senator Coburn. And I want to 
just add I appreciate the kind remarks at the outset, and none 
of this would have happened had we not been able to do it on a 
bipartisan basis. We have a very good positive, working 
relationship, and I know that that is going to continue.
    And let me also acknowledge, as Senator Coburn has, the 
fine work that was done by the late Congressman Tom Lantos, a 
friend of many of us, who really led on this issue, and Chris 
Smith, who, again, made it a bipartisan effort in the House and 
continues to have an abiding interest in progress on this 
issue. We will work with our House colleagues on any 
legislation that we develop.
    The record will reflect that we have sworn in the 
witnesses. Our first witness is Nicole Wong, Deputy General 
Counsel at Google. Ms. Wong is co-editor of ``Electronic Media 
and Privacy Law Handbook.'' She was one of the founders and 
first editors-in-chief of the Asian Law Journal. In 2006, Ms. 
Wong was named one of the Best Lawyers under 40 by the National 
Asian-Pacific American Bar Association. She received her law 
degree and master's degree in journalism from the University of 
California at Berkeley.
    Thank you for coming today. Your entire statement will be 
made part of the record, if you would like to summarize it at 
this point. After all the witnesses have spoken, we will ask 
questions.

STATEMENT OF NICOLE WONG, DEPUTY GENERAL COUNSEL, GOOGLE INC., 
                   MOUNTAIN VIEW, CALIFORNIA

    Ms. Wong. Chairman Durbin, Ranking Member Coburn, members 
of the Subcommittee, thank you for inviting me to discuss with 
you the issue of Internet freedom. My name is Nicole Wong, and 
I am Google's Deputy General Counsel. In that role, I am 
responsible for helping to address limits on free speech that 
Google faces around the world.
    Google's commitment to freedom of expression is at the core 
of everything we do. Our company's mission is to organize the 
world's information and make it universally accessible and 
useful. We provide Internet users with products that let them 
quickly and easily share, receive, and organize digital 
information. In theory, any person can use our free products 
that enable individual expression and information access.
    However, freedom of expression on the Internet is not 
embraced universally. For example, since 2007, our YouTube 
video-sharing site has been blocked in at least 11 countries. 
In the last couple of years, we have received reports that our 
Blogger and Blog*Spot sites are being blocked in at least seven 
countries. And our social networking site, orkut, has been 
blocked recently in three countries.
    With that in mind, I would like to make two main points in 
my testimony this morning. First, Google enables freedom of 
expression on a global platform, even as we deal with 
government efforts around the world to limit free expression. 
Second, governments around the world can and must do more to 
reduce Internet censorship.
    Let me begin with an example of how our products are used 
as tools for free expression in countries that have attempted, 
and in some cases succeeded, in restricting speech in other 
media.
    When the military government of Burma cracked down on 
protests by tens of thousands of Buddhist monks in the fall of 
2007, it tried to do so outside of the public eye. During the 
protests, foreign journalists were kicked out of the country, 
national media was shut down, and Internet and cell phone 
services were disrupted within Burma in an effort to prevent 
information leaking out about the extent of the violence. 
Nevertheless, tools like Blogger and YouTube were used by 
citizen journalists to share videos of the protests and 
information about the extent of the blackout, enabling the rest 
of the world to witness the human rights abuses taking place 
within that country.
    Because our technologies and services enable every person 
with an Internet connection to speak to a worldwide audience 
and, conversely, to read the stories and see the images posted 
beyond their national borders, Google has become a regular 
focus of governmental efforts to limit individual expression.
    Just to fill out this picture, let me give you two 
examples. Over the past year in Turkey, the courts have blocked 
the entire YouTube site multiple times, for several days each, 
because of videos deemed insulting to Mustafa Kemal Ataturk, 
the founding father of modern Turkey, who has now been dead for 
70 years, and other videos deemed by the Turkish Government to 
be threatening to their state, such as videos promoting an 
independent Kurdistan. Under Turkish law, these types of 
content are crimes. While we have been engaged with Turkish 
officials for many months, it has been difficult to even know 
which videos have been the source of complaint in order to 
address or challenge those bans.
    Another example: In China in October 2007, at a time when 
the Dalai Lama was awarded the Congressional Gold Medal and the 
Communist Party Congress convened in Beijing, YouTube was 
blocked throughout China. While we were not informed of the 
exact cause of this suppression of speech and we did not 
ourselves remove any videos, access to the site in China was 
reinstated only following the conclusion of the Party Congress.
    These are just two examples. Since the start of 2007, by 
our count Google services have been blocked, in whole or in 
part, in over 24 countries. As governments censor content 
online, we recognize that Internet companies have a shared 
responsibility to protect these important speech platforms and 
the people who use them as we deploy our services around the 
world.
    Every day Google works to advance human rights through a 
variety of initiatives. As a start, we work hard to maximize 
the information available to users in every country where we 
offer our services. To the extent we are required to remove 
information from our search engine, for example, we make 
efforts to tell our users by placing a notice on the Search 
Results page. In China, we believe we are the least filtered, 
most transparent search engine available.
    Google has also taken a leading role in working with 
companies and human rights groups to produce a set of 
principles on how companies respond to government policies that 
threaten speech and privacy online. We are also working with 
human rights bloggers and other groups to help them use our 
products to promote free speech online and to develop 
technology designed to defeat Internet censorship.
    So let me now turn to my second point. We believe it is 
vital for the U.S. Government to do more to make Internet 
censorship a central element of our bilateral and multilateral 
agendas.
    Mr. Chairman, the testimony I submitted to the Committee 
today includes detailed recommendations building on existing 
human rights mechanisms to reinvigorate the international 
community's commitment to free expression. There are two in 
particular I would call to the Committee's attention.
    First, we have become convinced that a single company can 
only do so much to fight censorship regimes around the world, 
and to meet the challenges in this area. We recommend increased 
prominence, authority, and funding be given to the State 
Department and the USTR. We continue to urge governments to 
recognize that information restrictions on the Internet have a 
trade dimension.
    The bottom line is that much, much more can be done by the 
U.S., and at the international level by countries that respect 
free expression online, to ensure that individuals, companies, 
and others can use the Internet as the free and open platform 
it was designed to be.
    I would like to conclude by thanking the Subcommittee for 
helping to highlight the importance of the Internet to free 
expression. It is only with the attention and involvement of 
leaders like yourselves that we can make real progress in the 
effort to combat censorship throughout the world.
    Thank you.
    [The prepared statement of Ms. Wong appears as a submission 
for the record.]
    Chairman Durbin. Thank you, Ms. Wong.
    Our second witness is Michael Samway. He is the Vice 
President and Deputy General Counsel at Yahoo! Mr. Samway leads 
Yahoo!'s Business and Human Rights Program. He is also on the 
board of Yahoo!'s Human Rights Fund. Mr. Samway earned his B.S. 
and M.S. from the highly respected Georgetown University School 
of Foreign Service, was a Fulbright Scholar in Chile, and 
received a JD/LLM in International and Comparative Law from 
Duke Law School.
    Mr. Samway, thank you for joining us. Please proceed.

    STATEMENT OF MICHAEL SAMWAY, VICE PRESIDENT AND GENERAL 
              COUNSEL, YAHOO! INC., MIAMI, FLORIDA

    Mr. Samway. Chairman Durbin, Ranking Member Coburn, members 
of the Subcommittee, my name is Michael Samway, and I am Vice 
President and Deputy General Counsel at Yahoo! I also lead 
Yahoo!'s global human rights efforts. I appreciate the 
opportunity to testify before you today.
    At Yahoo!, we are deeply committed to human rights and to 
being a leader among technology companies in this area. Our 
company was founded on the principle that promoting access to 
information can fundamentally improve people's lives and 
enhance their relationship with the world around them. In the 
period since Yahoo!'s creation in 1994, the power and ubiquity 
of the Internet has exceeded even our most far-reaching 
expectations.
    The Internet has dramatically changed the way people obtain 
information, communicate with each other, engage in civic 
discourse, conduct business, and more. Even in countries that 
restrict people's ability to communicate with one another or 
access information, people are still finding meaningful ways to 
engage online. Over the last week alone, we have seen just how 
important new communications technologies can be in places like 
China. Internet and cell phone resources have proven invaluable 
as government authorities and individuals contend with the 
aftermath of a devastating and enormously tragic earthquake in 
the Sichuan province.
    With the goal of bringing Yahoo!'s technological tools to 
people around the world, we embarked on a mission to expand our 
business globally in the late 1990's. As one of the first 
Internet companies to explore the Chinese market, we launched a 
service with the belief that providing the people of China with 
innovative tools to communicate, learn, and even publish their 
own views was one effective means to improve their way of life.
    We were joined in this strategy of engagement by many in 
Congress and in both Democratic and Republican administrations 
alike. With the sporadic pace of political progress in China as 
well as the need for companies there to adhere to local laws, 
we have also learned that expanding into emerging markets 
presents complex challenges that sometimes test even the 
important benefits of engagement itself.
    While Yahoo! has not owned or had day-to-day control over 
Yahoo! China since 2005, we continue to be concerned about the 
challenges we faced in that market and will certainly face in 
other markets in the years to come.
    Skeptics have questioned whether American Internet 
companies should engage in these countries at all. Yahoo! 
shares these concerns, and we have confronted these same 
questions about engagement in challenging markets. Yet we 
continue to believe in the Internet's transformative power and, 
on balance, its constructive role in transmitting information 
to, from, and within these countries. And we are committed to 
doing our part through supporting individual and collective 
action.
    Governments, because of their enormous leverage, have a 
vital role to play. To that end, we have asked the U.S. 
Government to use its leverage--through trade relationships, 
bilateral and multilateral forums, and other diplomatic means--
to create a global environment where Internet freedom is a 
priority and where people are no longer imprisoned for 
expressing their views online.
    Our CEO, Jerry Yang, has met personally with State 
Department officials and earlier this year wrote a letter to 
Secretary Rice urging the State Department to redouble its 
efforts to secure the release of imprisoned Chinese dissidents. 
Secretary Rice raised this issue with senior Chinese officials, 
and since then we have seen Members of Congress echo this call 
for U.S. diplomatic leadership. We hope these efforts will both 
intensify and bear fruit.
    We are also taking steps on our own. Jerry Yang announced 
the Yahoo! Human Rights Fund in November 2007, as part of a 
broader effort to address human rights challenges in China and 
around the world. We have partnered with noted dissident and 
human rights activist Harry Wu, who is here with us today, and 
the Laogai Research Foundation to establish this fund.
    The Yahoo! Human Rights Fund will provide humanitarian and 
legal support to political dissidents who have been imprisoned 
for expressing their views online, as well as assistance for 
their families. A portion of the fund will also be used to 
support the Laogai Research Foundation's educational work to 
advance human rights.
    In order to fuse our global business with responsible 
decisionmaking on human rights issues, we have also established 
the Yahoo! Business and Human Rights Program. A key pillar of 
this program is a formal assessment of the potential human 
rights impact of business plans we develop for new markets. 
This assessment examines the human rights landscape in a 
country, evaluates potential challenges to free expression and 
privacy, and offers strategic approaches to protect the rights 
of our users through legal and operational structures, among 
other methods. Yahoo! then tailors its entry into the new 
market to minimize risks to human rights.
    Because it is so difficult for just one company to create 
systemic change, Yahoo! has also been a committed participant 
in a broad-based global human rights dialog. We are working 
with industry partners, academics, human rights groups, and 
socially responsible investors to develop a code of conduct 
that will guide technology companies operating in challenging 
markets. At Yahoo!, we are eager to make this global code a 
reality in the near future.
    As an industry pioneer, Yahoo! is proud to have explored 
new ideas and markets, helping drive the transformative power 
of the Internet. Just like others who have gone first, Yahoo! 
has learned tough lessons about the challenges of doing 
business in nations with governments unlike our own. Yahoo! is 
working intensively and at the most senior levels in the 
company to set the highest standards for decisionmaking around 
human rights. The initiatives we pursue at Yahoo! are intended 
to protect the rights of our users, improve their lives, and 
make the extraordinary tools of the Internet safely and openly 
available to people around the world.
    I appreciate the opportunity to tell you about these 
efforts to date and about our plans to continue to pursue a 
global leadership role in the field of human rights. I look 
forward to answering your questions.
    Thank you.
    [The prepared statement of Mr. Samway appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Mr. Samway.
    Our next witness is Arvind Ganesan, Director of the 
Business and Human Rights Program at Human Rights Watch. He has 
published three books and numerous articles on business and 
human rights. In 2006, he was the editor of the Human Rights 
Watch report ``Race to the Bottom: Corporate Complicity in 
Chinese Internet Censorship.''
    Thank you for being here. Please proceed.

   STATEMENT OF ARVIND GANESAN, DIRECTOR, BUSINESS AND HUMAN 
      RIGHTS PROGRAM, HUMAN RIGHTS WATCH, WASHINGTON, D.C.

    Mr. Ganesan. Mr. Chairman, thank you for the opportunity to 
speak today, and thank you for your leadership on this issue. I 
would also like to thank members of the Subcommittee and, in 
particular, Senator Coburn. As somebody who is from Oklahoma, I 
have to say that my parents are thrilled about the prospect of 
me testifying in front of one of their Senators today.
    Human Rights Watch believes that the Internet is a 
transformative force that can help open closed societies and 
provide the near instantaneous flow of information to inform 
the public, mobilize for change, and ultimately hold 
institutions accountable. However, today there is a real danger 
of a Virtual Curtain dividing the Internet, much as the Iron 
Curtain did during the cold war.
    I would like to briefly address three issues in relation to 
global Internet freedom: the actions by some repressive 
governments to restrict the flow of information and to punish 
individuals using the Internet; the ongoing efforts by industry 
to develop self-regulation to ensure that leading companies do 
not become complicit in abuses; and, finally, the prospects for 
government-led change.
    In 2006, the human rights problems related to the Internet 
in China came to light. Yahoo! had provided user information to 
Chinese authorities that led to the imprisonment of online 
activists, and U.S. companies, including Google, Microsoft, and 
Yahoo!, censor their search engines in China. This is in 
anticipation of what Chinese censors expect and in addition to 
what the Chinese Government's firewall prohibits.
    But China is not the only government that actively tries to 
suppress its critics in the virtual world. Others have 
intimidated or silenced activists on the Internet by 
controlling both providers and users.
    The Russian Government is trying to replicate the Chinese 
firewall. It is promulgating a decree to spy on users, and it 
is also prosecuting an individual for posting a blog with an 
offensive suggestion that was ultimately critical of police 
corruption. And in January 2007, leading companies, including 
Yahoo!, Microsoft, and Google, along with human rights 
organizations, socially responsible investors, and academics, 
started a process to develop a voluntary code of conduct. The 
code was to contain a compliance mechanism to try to curtail 
censorship and protect user information.
    Initially, we had hoped that the process could help stop 
companies from censoring and ensure that they protect cyber 
dissidents. But almost 18 months later, there is no system in 
place. We are still negotiating. In the meantime, Internet 
users are no safer and censorship continues.
    Not every company is in the same place, nor is it fair to 
say companies do not care about human rights. And we have heard 
several examples of those approaches today. Those are laudable 
efforts, but they do not address steps companies should take to 
ensure that their operations do not contribute to abuses.
    Without disclosing the details of discussions within the 
initiative, I can say that a fundamental problem is that some 
companies continue to be very resistant to the idea of 
independent monitoring. In particular, they are resistant to a 
system that would allow for an independent third party to 
assess: one, whether or not companies have put policies into 
place to reduce censorship and protect users; two, that those 
polices are diligently implemented; and, three, that their 
implementation is actually effective in curtailing these human 
rights problems. Unfortunately, the preferred option for some 
companies is a system in which they will decide who the 
monitors are, what they will see, and will implement those 
standards at a pace convenient to them.
    In other words, companies will express support for human 
rights but also ask the public to basically trust them to do 
the right thing.
    Sadly, it is difficult to point to any company within the 
voluntary initiative that has robust human rights policies and 
procedures in place more than 2 years after the problems in 
China were disclosed. Google, for example, has actively 
resisted such efforts. On May 8th, Google's board voted down 
two shareholder proposals. One called on the company to 
implement policies and procedures to protect human rights, and 
the other called for a board committee on human rights. Sergey 
Brin, the company's co-founder, abstained from the vote because 
he felt that these proposals were not the appropriate way to 
approach the issue. Instead, he suggested a company discussion 
might be useful.
    Google's resistant stance and the lack of consensus on 
voluntary standards raise a fundamental question: What is 
holding up these companies from implementing an effective means 
to protect user privacy and to curtail censorship?
    My final point is on government. Legislation is an 
essential complement to a voluntary effort, and there is a 
promising bill in the House. A voluntary initiative will not 
apply to companies which do not join it, and it is difficult to 
see how it will be implemented under repressive governments who 
are very good at dividing and pressuring companies. Legislation 
would make it more difficult for repressive governments to 
force companies into becoming complicit in human rights abuses, 
and it might also encourage a more assertive U.S. foreign 
policy on these issues.
    A useful model for this approach is the Foreign Corrupt 
Practices Act. That act mandates that companies will face 
penalties if they do not put adequate systems in place to 
prevent bribery, and it contains penalties if they actually 
engage in corruption. A similar approach could work quite well 
in regards to the Internet and would easily complement a 
voluntary initiative since it would require a company to put 
systems into place to prevent abuses and would hold them 
accountable if abuses occurred. Unfortunately, the companies 
are apparently resistant to legislation, much like they are 
resistant to effective voluntary measures.
    Last weekend, news reports began to circulate about an 
Indian man who reportedly is facing charges for making critical 
and possibly vulgar comments about Sonia Gandhi online. He was 
reportedly identified with the help of Google because he was 
using their social networking site in India. We should not have 
to wait for another arrest to see progress from companies.
    Thank you again, and I look forward to your questions.
    [The prepared statement of Mr. Ganesan appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Mr. Ganesan.
    Our next witness is Mark Chandler, Senior Vice President, 
General Counsel, and Secretary of Cisco Systems. He has been 
with Cisco since 1996. He was previously General Counsel at 
StrataCom and Vice President and General Counsel of Maxtor 
Corporation. He is a member of several boards, including the 
Board of Visitors at Stanford Law, and the Advisory Council of 
the Woodrow Wilson International Center for Scholars in 
Washington. Mr. Chandler received his bachelor's degree from 
Harvard and his J.D. from Stanford Law School.
    Mr. Chandler, thank you for joining us and please proceed.

  STATEMENT OF MARK CHANDLER, SENIOR VICE PRESIDENT, GENERAL 
    COUNSEL, AND SECRETARY, CISCO SYSTEMS, INC., SAN JOSE, 
                           CALIFORNIA

    Mr. Chandler. Mr. Chairman, Ranking Member Coburn, my name 
is Mark Chandler. I am Senior Vice President and the General 
Counsel of Cisco. Thank you for the opportunity to appear 
before you today.
    My company was founded 24 years ago by two Stanford 
graduate students. Today we have 65,000 employees around the 
world, more than 40,000 in the United States, including over 80 
percent of our engineering. We are proud of the fact that we 
have added over 8,000 jobs in the United States in the last 2 
years in difficult economic times.
    I testified 2 years ago before Congressman Smith's 
Subcommittee on the topic of global Internet freedom. As a 
company that supports free expression and open communication, 
we recognize the importance of driving policies to enable 
people the world over to benefit from the freedom and 
empowerment that the Internet can offer. I want to reiterate 
five key points from that testimony 2 years ago.
    First, Cisco sells the same products globally, built to 
global standards, thereby enhancing the free flow of 
information.
    Second, Cisco's routers and switches include basic features 
that are essential to fundamental operation of the Internet by 
blocking hackers from interrupting services. protecting 
networks from viruses.
    Third, those same features without which the Internet could 
not function effectively can, unfortunately, be used by network 
administrators for political and other purposes.
    Fourth, in this regard, Cisco does not customize or develop 
specialized or unique filtering capabilities in order to enable 
different regimes to block access to information.
    And, fifth, Cisco is not a service or content provider, nor 
are we a network manager who can determine how those features 
are used. These points were through 2 years ago, and they 
remain true today.
    I do want to directly address the Cisco internal 
presentation that was provided to the Committee last week, 
which was prepared by a Chinese engineer inside Cisco in 2002, 
designed to inform Cisco employees in China about the history 
and operation of China's public safety organizations. I have 
the utmost respect for those like Professor Zhou who commit 
their lives and resources to the cause of free expression. And 
I am also grateful to him and to Ambassador Palmer and Michael 
Horowitz of the Hudson Institute for providing the presentation 
to us so we could translate it and review it in advance of 
today's hearing.
    We were disappointed to find that the Cisco internal 
presentation included a Chinese Government official statement 
regarding combat and hostile elements, including religious 
organizations. We regret the engineer included that quote in 
the presentation, even by way of explaining the Chinese 
Government's goals, and we disavow the implication that this 
reflects in any way Cisco's views or objectives.
    The nature of that presentation has not been accurately 
described, however. The document consisted of 90 PowerPoint 
slides reviewing various Government projects, including no 
fewer than 12 pages on the Beijing traffic management bureau 
and firefighting brigades. The presentation described products 
of various other companies, including China's Ra Wei, and U.S. 
companies, such as Lucent, Harris, and Motorola, in providing 
equipment to the Ministry of Public Security. It also described 
in detail the role that Cisco's standard networking products 
could play in facilitating communication. In no case--and I 
repeat, no case--did the document propose any Cisco products be 
provided to facilitate political goals of the government, and 
no reference was made to an application of our products to 
goals of censorship or monitoring.
    We do not know how the Chinese Government implemented 
filtering or censorship beyond the basic intrusion protection 
and site filtering that all Internet routing products contain, 
such as used by libraries to block pornography.
    For instance, Cisco does not provide the interception 
capabilities that comply with the CALEA statute in the U.S. We 
believe the mediation devices the Chinese Government uses for 
that purpose are altogether unique and developed and sold by 
Chinese companies.
    Mr. Chairman, you referred in your opening statement to 
other companies which do provide specialized security products 
and which Cisco has not. Our technology has helped connect the 
world in an unprecedented fashion. Perhaps the most vivid 
example of this in China is the response to last week's 
earthquake. Within minutes, pictures and videos from the region 
were online, and contrast that with the situation in Tangshan 
32 years ago when the world received no official confirmation 
for months that a quarter of a million people had been killed 
in a huge earthquake. Today, more than 220 million Internet 
users in China are testimony to the ability of the average 
citizen to find information which has been dramatically 
expanded.
    But the phenomenon of Internet censorship is, nonetheless, 
a global issue. Many governments around the world do not share 
our principles even as the Internet facilitates unprecedented 
communication. Around the world, governments do try to block 
citizen access to information. But Cisco complies with all U.S. 
regulations informed by human rights concerns which control 
sale of our products.
    The policy responses that the Senate must consider with 
regard to the Internet and censorship are complex. Among the 
questions we have historically raised are: Has the Internet 
helped spread a dramatic access to information in regions where 
content is, nonetheless, subject to limitations? And if 
countries that engage in censorship are to be denied U.S. 
Internet technology, will those countries establish a closed 
Internet of their own, thereby enforcing the Virtual Curtain 
that Mr. Ganesan referred to?
    In conclusion, Mr. Chairman, I have read and thought a lot 
about these important and difficult issues, and I agree with 
experts, including many human rights activists, who are of the 
view that engagement with China and other nations is more 
likely to lead to positive change than isolation. I also 
believe, having worked in the information technology sector for 
decades, that the Internet is one of the greatest contributors 
to positive change and that we should do whatever we can to 
make as much information available to as many people as 
possible. This can be accomplished through an Internet that is 
maintained as one global system built to global standards. I 
believe the U.S. Government for more than 30 years has pursued 
a consistent and sensible policy, and the fact that the 
Internet is robust in China is a powerful testament to that 
fact.
    Thank you again for inviting us to appear today before the 
Subcommittee.
    [The prepared statement of Mr. Chandler appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Mr. Chandler.
    Our final witness is Dr. Shiyu Zhou. Dr. Zhou is the Deputy 
Director of the Global Internet Freedom Consortium, an 
organization that creates software that allows citizens in 
repressive countries to break through firewalls and freely 
access the Internet. Dr. Zhou is the Vice President of New Tang 
Dynasty Television and an adjunct professor at Rutgers 
University's Computer Science Department. He was previously on 
the faculty at the University of Pennsylvania.
    Dr. Zhou, thank you for being here today, and please 
proceed.

   STATEMENT OF SHIYU ZHOU, DEPUTY DIRECTOR, GLOBAL INTERNET 
             FREEDOM CONSORTIUM, BETHESDA, MARYLAND

    Mr. Zhou. Mr. Chairman, Ranking Member Coburn, I am proud 
to stand before you today on behalf of the Global Internet 
Freedom Consortium, a small team of dedicated volunteers 
connected through their common practice of Falun Gong, who have 
come together to work for the cause of Internet freedom. We 
constantly battle tens of thousands of Internet monitors and 
censors around the world so that millions of citizens inside 
repressive societies may safely communicate online and access 
websites related to human rights, freedom, and democracy. These 
men and women maintain operations out of their own pockets, but 
provide their products and support services to the citizens of 
closed societies entirely free of charge.
    The consortium has run the world's largest anti-censorship 
operation since 2000. Our services currently accommodate an 
estimated 95 percent of the total anti-censorship traffic in 
closed societies around the world and are used daily by 
millions of users. As of January 2008, the top five censoring 
countries with the most daily hits to our anti-censorship 
systems are: China, 194.4 million hits per day; Iran, 74.8 
million hits per day; Saudi Arabia, 8.4 million hits per day; 
United Arab Emirates, 8 million hits per day; Syria, 2.8 
million hits per day. And there are also users from many more 
closed societies, such as Cuba, Egypt, Sudan, and Vietnam. It 
has been transforming the closed society in a peaceful but 
powerful way that must not be underestimated.
    Our tools have also been of benefit to U.S.-based 
organizations such as Human Rights in China, Voice of America, 
and Radio Free Asia, and even companies like Google and Yahoo!, 
who self-censor, since we bring the uncensored version of their 
services into closed societies. We have witnessed firsthand the 
effectiveness of anti-censorship technologies in improving 
information freedom for people in closed societies. During the 
democratic movements in Burma in late August 2007, our anti-
censorship portals experienced a threefold increase in average 
daily hits from IP addresses originating in side Burma. After 
the protests broke out in Tibet on March the 10th of this year, 
there was a fourfold increase in the number of daily hits to 
our portals from Tibet, with Tibetans desperately trying to 
send out information about the crackdown by Chinese 
authorities. Our anti-censorship tools are now one of the 
Tibetans' few remaining links to the outside world.
    At the same time that we are battling the censors for the 
freedom of the people in closed societies, we are, 
unfortunately, finding strong indication that companies such as 
Cisco located in free societies may be involved in helping the 
Chinese security agencies monitor and censor the Internet, and 
persecute and prosecute Chinese citizens.
    In a 2002 Cisco China PowerPoint presentation entitled ``An 
Overview of [China's] Public Security Industry,'' now in our 
possession, a Cisco China official in the Government Business 
Department listed the Golden Shield Project, the host project 
of China's Great Firewall, as one of Cisco's major target 
customers. In this document, which apparently lays out the 
marketing strategy for Cisco China to sell products to the 
Chinese Security Police, one of the main objectives of the 
Golden Shield was to ``combat the `Falun Gong' evil cult,'' 
parroting the rhetoric of the Chinese authorities used to 
persecute Falun Gong.
    In the presentation page headed ``Cisco Opportunities [in 
the Golden Shield Project],'' Cisco offers much more than just 
routers. It offers planning, construction, technical training, 
and operations maintenance for the Golden Shield. Our research 
shows that the infrastructure of China's Great Firewall 
coincides with the layout in Cisco China's PowerPoint 
presentation. Cisco can no longer assure Congress that Cisco 
China has not been and is not now an accomplice and partner in 
China's Internet repression and, whether directly or 
indirectly, its persecution of Falun Gong practitioners and 
other peaceful citizens in China.
    Anti-censorship technology can allow the people in closed 
societies to be less subject to manipulation by an unscrupulous 
leadership. Winning people over to a more open and free system 
via the Internet could very well be a way to avoid future 
conflicts that can cost lives.
    To our belief, reaching a critical mass of 10 percent of 
the 280 million Internet users in all closed societies will 
result in the avalanche effect that could lead to the fall of 
the censorship walls in closed societies.
    The battle of Internet freedom is now boiling down to the 
battle of resources. The consortium has the know-how, 
experience, and capabilities needed to reach the critical mass 
in this coming year with just modest funding. We hope and trust 
the Senate and the Congress will grasp with what we believe to 
be a historic opportunity. Only when the U.S. shows more 
determination to keep the Internet open than the closed 
societies will to seal it off can there be the hope of 
information freedom and democracy for the citizens in all 
closed societies and a more peaceful tomorrow for all of 
mankind.
    Thank you.
    [The prepared statement of Mr. Zhou appears as a submission 
for the record.]
    Chairman Durbin. Dr. Zhou, thank you very much.
    Senator Coburn has another hearing that he has to attend, 
and I am going to allow him to ask questions first so that he 
can put some questions on the record, and both of us will 
reserve the right, as will the other members of the Committee, 
to submit written questions after this hearing.
    Senator Coburn?
    Senator Coburn. Thank you, Mr. Chairman, for your 
graciousness.
    Mr. Chandler, how do you respond to what Mr. Zhou just 
said? He has outlined not just the sales of equipment, but the 
management and advisement and counseling and training on how to 
affect censorship by the Chinese.
    Mr. Chandler. Thank you. Once again I would reiterate the 
respect I have for the efforts that he undertakes to allow 
access to information that censors would otherwise preclude 
access to.
    I was appalled when I saw the line in the slides and very 
disappointed to see it even as a quote from a government 
official. There were several pages in the presentation which 
said here are the government's goals with this project, the 
government's goals with the next project. And the Golden Shield 
section has quite a few pages in the presentation devoted to 
different aspects of what they were trying to accomplish, 
including illegal drug interdiction, traffic management, and so 
forth.
    The description in there had to do with what generally 
involves network planning and layout, which is something you do 
when you sell routing and switching equipment. We do provide 
service for our equipment so that it can be fixed if it is 
broken, and that is the type of service that we provide, 
technical service so that people understand how to use the 
equipment.
    The only equipment that has been sold as a result of that 
is routing and switching equipment for essentially office 
automation and internal purposes within the Public Security 
Bureau. It has been a relatively small amount, I think, in the 
year after that presentation was made, and, again, we are 
talking about something that was 6 years ago. I think there was 
approximately $10 million of sales, and, again, office 
automation equipment more than anything else--in fact, 
exclusively.
    That is the nature of the implementation. There was nothing 
there that had to do with censorship, none of this kind of 
strong security products that the Chairman referred to in his 
opening remarks that would facilitate that type of 
communication interception. And I would point out just by way 
of example that when an issue arose a couple of years ago 
regarding someone who was arrested as a result of online 
posting, that was not done by the government because they were 
able to receive information from Cisco products. They had to go 
to the service provider in question and try to identify the 
individual by name. We are providing generic routing and 
switching equipment in these instances that we do not think 
facilitates the types of activities that I know are very 
troublesome to Dr. Zhou and to us as well.
    Senator Coburn. Dr. Zhou, the references to the 2002 
presentation, do you have information outside of that 2002 
presentation that would lead you to conclude that the facts are 
otherwise from what Mr. Chandler stated?
    Mr. Zhou. Yes, we have. Actually, we have just submitted 
another document to the Subcommittee this morning. It is 
apparently a sales pitch presentation by the same Cisco-China 
person who made the first 2002 document, to the public security 
police in China, showing how to use Cisco equipment to 
construct the Golden Shield Project in different cities and 
provinces, including Beijing.
    Senator Coburn. To Mr. Chandler's point, though, even 
though they built it, they still have an ISP that they have to 
go through. Is that correct?
    Mr. Zhou. I am sorry. The--
    Senator Coburn. Well, you can build it, but there is still 
an Internet service provider that people are using. So will 
they not and still have to use the complicit help of an ISP 
with which to identify someone?
    Mr. Zhou. Well, Cisco's routers have--it is a 
supercomputer. It has various functions. And the censorship, 
which is the thing that we are concerned most about, happens at 
the national gateway level, and so they can monitor, they can 
do content filtering, and they can do a hijacking of the DNS, 
and also they can do IP blocking so people cannot see websites.
    And in regard to the monitoring system you mentioned, Cisco 
also has other equipment, including voice and image recognition 
and other things, that could be used. And if you want to track 
down the users of certain going to certain IP addresses, well, 
so there are many ways to do that, and so there are other 
companies who are doing this, and Cisco is one of the major 
companies.
    Senator Coburn. All right. Our first two witnesses talked 
about using trade and enhancing our USTR in terms of our 
approach to censorship. Why not just, Dr. Zhou--rather than 
give it to a bureaucrat and create an anti-censorship center 
where we, in fact, make it so hard for them to censor that they 
give up, that he wins, that we get over the critical mass 
rather than do it through the bureaucratic maze? It obviously 
has not worked in the past on several other issues in China in 
terms of both the State Department and the USTR. Why would you 
make--why would you think that that would work through the 
Trade Representative or the State Department that China is 
going to change its policy?
    Ms. Wong. I will take that, because I think we have a 
number of recommendations that are in my testimony. And let me 
explain.
    I think the USTR is an important step. I think it is 
important to recognize that freedom of information on the 
Internet is a trade issue and that we can use that with other 
countries as we negotiate those agreements. But having said 
that, Senator, you are absolutely right. It is not a silver 
bullet. The Government has many tools in its toolbox, and we 
would actually encourage them to use a variety of them.
    We think the USTR one is a good one. We think greater 
prominence and authority given to the State Department would 
also be very, very helpful in our experience in talking to 
countries. Particularly there is a second generation of 
countries that are coming online, and they do not have the same 
values that we do on freedom of expression or governance, and 
to have State Department officials who could engage them on 
that level would be enormously effective.
    Also, as a company, we support the development of tools 
that are intended to get around censorship of the Internet. We 
do that in a couple of ways, both directly supporting 
developers in that area, and also providing a code base for 
building on top of. There are a number of things, I think, that 
can be done. The USTR is one of them.
    Senator Coburn. Mr. Samway, do you want to comment on that?
    Mr. Samway. Senator, that is a very good question. We are a 
technology company, and certainly technology is part of the 
solution, and we are going to explore Dr. Zhou's organization 
and the technology offered. At the same time, it is also a 
human problem. It is a company challenge, and we are taking on 
the challenge at Yahoo! to build internal capacity to make 
responsible decisions on human rights.
    There is also an important role for Government to play, and 
we agree not only with using trade, but all the other, as Ms. 
Wong said, tools in the U.S. Government's toolbox to emphasize 
that Internet freedom is a global priority.
    Senator Coburn. It may be my lack of knowledge, but I think 
that is already our policy. Is it not already our policy at the 
State Department?
    Ms. Wong. I believe there is a freedom-of-expression 
component to the State Department's mandate. I think in our 
experience they have been very helpful with us in some 
instances with some governments. My sense is they could use 
greater resourcing, greater prioritization.
    Senator Coburn. OK. Thank you.
    Mr. Ganesan, what is your thought about what Dr. Zhou does 
and the likelihood that whether we have a Government-mandated 
committee look at this or a voluntary organization from 
industry look at it and have a tool up here that is above the 
box versus what he is doing below the box, which do you think 
ultimately is going to be more effective?
    Mr. Ganesan. Thank you. I actually think all of them will. 
I think that you do need to foster new technologies to get 
around firewalls and to get around censorship and to help 
people protect their privacy.
    At the same time, I think that Government can be more 
aggressive. The State Department, I believe, has a Global 
Internet Task Force, which it has now launched twice, I think, 
and so there is a lack of clarity as to what its ultimate 
purpose and its overall strategy is, and I think that that 
could be addressed. And I think trade policy could be useful, 
but it is important to bear in mind that these are long-term 
fixes and diplomatic fixes. The immediate fix may be fostering 
new technologies and, most importantly, getting leadership 
companies to do the right things. And the balance that we want 
to strike between a voluntary and mandatory initiative is that 
some things can be done voluntarily, providing the public has 
the assurance that what people say they are doing is actually 
done.
    But then there are going to be cases, like China or others, 
where the Government is just too good at picking off individual 
companies or pressuring them to do the wrong thing, in which 
case rules need to be changed so that they have a backstop 
which helps them move beyond that into something else.
    Senator Coburn. Somewhat they are using their purchasing 
power to be able to influence what is happened.
    One last question, and I will submit the rest of mine for 
the record. Google participates in China, but you do not offer 
Gmail. Why not? Turn your microphone on, please.
    Ms. Wong. When we launched our services in 2006, we thought 
very carefully about how we could do that in a way that we 
would be maximizing the availability of information in China 
while also protecting user services. And we took a lot of 
lessons from the examples of companies that went before us.
    One of the decisions we made was that we did not want to 
host Gmail or Blogger or services that would include 
confidential, sensitive information that we might be required 
to provide to the Chinese Government. So the services that we 
currently offer in China include our search services, a map 
service, a local business service, and some others.
    Senator Coburn. But there other countries that have 
repressive regimes and Internet censorship where you offer 
Gmail. How is it you can do that in those countries and not in 
China?
    Ms. Wong. Because of the nature of how we have seen the 
government use information, we were particularly concerned 
about China. We do offer Gmail in other countries. Before we 
launch in countries, we do try to--we do an assessment of those 
countries in terms of both our risk of being compelled to 
produce information in those countries as well as what the 
government structures in those countries look like.
    Senator Coburn. All right. Thank you.
    Thank you very much, Mr. Chairman.
    Chairman Durbin. Thank you, Senator Coburn. I understand 
you have to leave and you will submit some questions for the 
record. We are joined by Senator Whitehouse, and I would like 
to ask first some questions related to this Cisco PowerPoint, 
Mr. Chandler.
    First, do you know the person who was responsible for this 
PowerPoint presentation, which made the negative reference to 
Falun Gong and talked about using Cisco's resources to train 
the Chinese Government in censorship and repression?
    Mr. Chandler. Well, first of all, I do not know him. I have 
never met him. I have never spoken with him. He is not a 
manager. He has nobody who reports to him. He is a first-level 
employee. I think he is four or five levels down in the 
Chinese--
    Chairman Durbin. Does he still work for Cisco?
    Mr. Chandler. Yes, he does. The document did not propose on 
behalf of Cisco that Cisco combat in any way or adopt any of 
the government's goals. It simply listed what the government's 
goals were, and there were several pages within the document 
that do that. You will note on the chart that Mr. Zogby is 
holding up right now that the first two bullets from this 
government statement were crack down on Internet crimes and 
ensure security in services of public Internet, which are 
fairly straightforward goals for network administrators.
    There was not a proposal whatsoever in the Cisco document 
that Cisco be involved in censorship or monitoring. And, 
interestingly, just to draw on something that Professor Zhou 
said, the censorship and monitoring that would occur would not 
be within that ministry, apparently, but as Dr. Zhou said, at 
the gateways where information comes in and out. And so that 
project that was referred to there did not seem to have any 
censorship or monitoring aspect to it with respect to anything 
Cisco could provide.
    Chairman Durbin. Does this person still work for Cisco?
    Mr. Chandler. Yes, he does. I would note, by the way, that 
we have no video recognition, and the only voice recognition we 
have is so people can dial by picking up a phone and asking for 
their voice mail. So that is just not our product either.
    Chairman Durbin. Now that this document has been made 
public, what efforts will your company make to clarify your 
position relative to Falun Gong and this type of conduct?
    Mr. Chandler. Well, first of all, the document is a 6-year-
old description of the Chinese public safety organizations and 
how they were laying out their network plans based on what 
government officials were saying about them.
    With respect to our position, as I said in my testimony, 
the views of the government officials cited in it were not 
Cisco's views then; they are not Cisco's views now. That was an 
internal document describing the government's goals that was 
used internally among Cisco employees, and but for the fact 
that it was put on the record here, would never have been 
identified with Cisco in any case, whatever our view.
    Chairman Durbin. What internal systems or written policies 
does Cisco have so that your employees in China, or any other 
place, do not assist a government's efforts at censorship and 
repression?
    Mr. Chandler. Well, it goes to the nature of our products. 
The principal thing that we do that is beneficial in that 
respect is that our products are built to global standards, and 
we sell the same products globally. So we do not customize them 
for those types of purposes in any way. And that is the 
fundamental principle that we have that applies globally. We do 
have 65,000 employees the world over; documents are generated 
every day describing the capabilities of our products. And it 
was inappropriate for him to include a political goal that--
    Chairman Durbin. As a matter of record, I accept that, but 
my question was specific.
    Mr. Chandler. Yes.
    Chairman Durbin. What internal systems or written policies 
do you have to make it clear to your employees not to engage in 
conduct that supports the Chinese Government's censorship and 
repression?
    Mr. Chandler. We have a written, extensive code of conduct 
that refers to the way our products are to be used, what the 
aspirations of the company are, and we also have a corporate 
social responsibility organization that clearly sets forth in 
our annual review of that what the company's support is for 
human rights globally, including the power of the Internet to 
do that. And employees who would customize our products in such 
a way as to undermine human rights would not be consistent with 
the code of conduct that we have.
    Chairman Durbin. Does your company inform government 
clients, in writing or otherwise, that they will not assist in 
efforts toward censorship and repression?
    Mr. Chandler. Given that our products do not do that, I am 
not sure the nexus for providing that kind of statement to a 
government in that the products that we provide as global 
standardized products for routing and switching of information 
simply are not applicable to that purpose.
    Chairman Durbin. Dr. Zhou, would you like to react to Mr. 
Chandler's comments?
    Mr. Zhou. Yes, Mr. Chairman. We should consider a normal 
business procedure that Cisco and other companies use to do 
business with China, in which we have pre-sales services and 
also post-sales services.
    In pre-sales services, you get the objectives of your 
client and make a proposal to them. Like in this PowerPoint, it 
tells Cisco people about the objectives of the Chinese police 
force and how to market Cisco products to the Chinese, 
including how to ``combat Falun Gong.''
    After the sales, you have post-sales services by 
implementing the solution to achieve the objectives. That 
includes the (lower-level) design, customization, testing, 
implementation, plus training, maintenance, etc.
    Cisco routers are supercomputers. They can be used as a 
toy, but they can also be made into a A-bomb. It completely 
depends on the objectives of the client.
    Cisco can design it purposefully to accommodate the needs 
of the client, and that is what the other document submitted to 
the Subcommittee is doing--Cisco made it into an A-bomb to 
accommodate whatever the Golden Shield Project needs.
    Chairman Durbin. I might say for the record that the other 
document you have referred to was given to the Committee about 
5 minutes before the hearing in Chinese.
    Mr. Zhou. Right.
    Chairman Durbin. And so--
    Mr. Zhou. The English. The English.
    Chairman Durbin. In English as well?
    Some of it is translated and some of it is not. We are 
still working on the translation, so I thank you for that.
    Mr. Chandler, I want to give you the last word on this, and 
then I want to ask some other questions, if I might. I would 
like to add to Dr. Zhou's comments.
    Mr. Chandler. Sure. I think that there are several things 
that I think we can do and that are relevant and positive in 
this respect. Cisco does support the goals of the Global Online 
Freedom Act to promote freedom of expression on the Internet 
and also to protect U.S. businesses from coercion by repressive 
authoritarian foreign governments. In particular, we support 
section 104 that would establish an Office of Global Internet 
Freedom in the Department of State. We support restrictions on 
the ability of companies to locate within an Internet-
restricting country electronic communications that include 
personally identifiable information, which we generally do not 
do in any case. And, finally, we also support title III, which 
would require the Secretary of Commerce, in conjunction with 
the State Department, to conduct a feasibility study for the 
development of export license requirements regarding export of 
any items to an end user in an Internet-restricting country 
that would facilitate substantial restrictions on Internet 
freedom.
    We comply fully with the U.S. laws that exist today, 
including the Foreign Relations Authorization Act that was 
enacted in 1990 and puts specific limitations on supply of 
certain crime control equipment to Chinese Government agencies. 
There is a lot that can be done.
    Chairman Durbin. I am going to submit a question for the 
record relative to Commerce Department regulations on equipment 
that I hope you will have a chance to respond to through your 
company. And I would like to ask the others a few questions. I 
do not know if you have a few minutes, Senator Whitehouse. Do 
you?
    Senator Whitehouse. I am supposed to be on the floor 
shortly.
    Chairman Durbin. Oh, well, go ahead. Senator Whitehouse, 
why don't you go ahead and ask questions, and I will return 
after you.
    Senator Whitehouse. I would appreciate it, Mr. Chairman. I 
will be quite brief. First of all, I want to thank you for 
holding this hearing, and I think particularly the emphasis on 
representing basic human freedoms and rights in our trade 
policies that Ms. Wong brought up and that has been discussed 
in this hearing is particularly important. I have been pressing 
in my brief time in the Senate for our trade policies to 
reflect basic things, like honoring property rights in 
countries that we have trade relationships with, honoring free 
press, and I think the discussion about honoring Internet 
openness and neutrality has been helpful to me in informing 
those views and other areas where I think our trade policies 
could effectively reflect our values better than they do.
    With respect to the American companies that are here before 
us today, let me ask you this: Are you selling products or 
services in China that are different than your standard 
products that have been customized or tailored--I think Dr. 
Zhou used the word ``customized"--in any way to facilitate the 
repressive efforts of the Chinese regime? And I ask that 
question because it is a different question for me if, you 
know, we are selling a Ford car that is a standard Ford car and 
the Chinese police are using it for repressive purposes. That 
really does not necessarily trail back to the responsibility or 
culpability of the Ford Motor Company. On the other hand, if 
the American equipment is being tailored to support the 
repressive efforts in any way, that seems to me to raise a 
different question.
    So I would ask each of you, I guess Mr. Chandler, Mr. 
Samway, and Ms. Wong, if you could answer that for your 
respective companies.
    Mr. Chandler. No, we do not.
    Mr. Samway. Thank you, Senator Whitehouse. We do not sell 
equipment. The services that we offer on yahoo.com are 
available to Internet users all over the world in the same 
form--
    Senator Whitehouse. The same whether you are signing on 
France or India or U.S. or China?
    Mr. Samway. That is correct, assuming you have access and 
it is not blocked. The local subsidiaries of any company will 
be required to comply with local laws, and that would be the 
case with the companies that we no longer control but that is 
run by Ali Baba and called Yahoo! China. And we, like you, 
believe deeply in free expression and certainly in privacy. 
Those are our founding principles.
    Senator Whitehouse. Ms. Wong?
    Ms. Wong. We offer a global service, which is our 
google.com service, the service you can access here in the 
United States. That is available throughout the world, 
including in China, and what we found prior to 2006, when we 
first launched our local service on google.cn in China, is that 
google.com would be frequently blocked, completely unaccessible 
to the people of China. And so after much discussion by our 
senior executives about how to still be able to provide 
meaningful information in China, we decided to offer a 
localized version on our google.cn domain, which is, in fact, 
compliant with Chinese law pursuant to our license 
requirements.
    Senator Whitehouse. Do you do that in other countries as 
well?
    Ms. Wong. We do, actually. So our strategy in China and 
globally is to make as much information available as possible, 
and if information has to be removed, to be transparent with 
our users about that. So, for example, in Germany, which 
prohibits Nazi propaganda material, we will remove at the 
request of the government that type of material from our dot-
de, our German local domain. That is the same, for example, in 
Canada, which has a law that protects certain groups and 
prohibits hate speech. Upon request, we will also remove that 
sort of information when found on our dot-ca, our local 
Canadian domain.
    In China, we likewise do the same and, candidly, with great 
reservation. That is why it took us so long to get into China 
in the first place. But we do comply with the local laws there.
    Senator Whitehouse. Thank you very much.
    Thank you, Chairman.
    Chairman Durbin. I want to followup, and if you could--I do 
not know if you have to leave immediately, Senator Whitehouse, 
but if you could show the two charts here from google.cn and 
google.com, we tried to find a reference here to something very 
generic, and so we decided it would be images--is that the 
first one? This is on Human Rights Watch, which, of course, Mr. 
Ganesan is here representing. And you will notice on the one on 
the right, when you log in Human Rights Watch, what is 
available on Google, and over here on the Chinese side, I think 
if I can find the translation here, what they have to say about 
it is--the cn site says ``cannot find the Web page matching 
your inquiry.'' So if you are looking for Human Rights Watch 
through google.cn, they basically say they do not know what you 
are talking about. But if you go to google.com and make the 
same request, there are some 35,000 entries that are available 
to you.
    Ms. Wong, is that what you meant earlier when you said you 
offered both of these?
    Ms. Wong. That is right. We do offer both of those. So 
google.com is always made available except when the Chinese 
Government itself decides to block us through its Great 
Firewall.
    Chairman Durbin. Let me show one other example, if I can, 
and this one is photo images that are available. This is 
through Yahoo!, and you will notice on the right, if you would 
type in ``Tiananmen,'' you will receive Yahoo! images which 
reflect what happened in Tiananmen Square, the historic events 
in Tiananmen Square. However, if you go through the Chinese 
site here, you will notice that there are a lot of tourist 
postcard images of Tiananmen Square. It is a dramatically 
different presentation. This is what I believe the people in 
China are likely to see. They are basically being excluded from 
seeing the reality of what actually happened in Tiananmen 
Square. We use these just as examples so you understand what 
this is about in terms of drawing these lines.
    I am trying to step back here and put myself in your 
position for a moment in terms of world competition. I start 
this with the knowledge that 12 to 13 years ago, I was 
following very closely what was happening in the Baltic States. 
My mother was born in Lithuania, so I watched closely as they 
tried to separate from the Soviet Union and bring democracy.
    The thing that saved the Baltic revolution in Lithuania was 
the fax machine. It is hard to believe in this day and age that 
would be true, but the Soviets could not stop the fax machines. 
And they were humming 24 hours a day with information coming 
out of Lithuania and the Baltic States about what was really 
happening, because you could not find out on the ground, from 
official sources or otherwise, what was happening. So that very 
primitive and early technology I think had a lot to do with 
democracy coming when it did to the Baltic States.
    So my notion when we got into the debate about China and 
its free trade agreement was that there was no way that a 
central authority, a government in China, could control the 
glow of all those modems across China, that eventually that 
information would overwhelm any government's effort at control. 
And I think that goes to the heart of why we are here today.
    There are two issues as I see it, and one is the complicity 
or cooperation of American companies in limiting information, 
because of government censorship or otherwise, to clients in 
foreign countries. And the second part we have not touched on 
but that we need to--I referred to it in my opening--is the 
privacy of individuals and the cooperation of American 
companies in identifying individuals who will then subsequently 
be arrested, charged, and imprisoned for seeking information or 
sharing information on the Internet.
    It strikes me there are two things here, the censorship 
policy and the privacy policy, that we have to ask about. And 
the obvious question is: Can we, should we, establish standards 
for American companies involved in global commerce when it 
comes to these two things? Should we declare it wrong for an 
American company to in any way cooperate with censorship and 
repression?
    Ms. Wong, what do you think?
    Ms. Wong. So you know, let me talk a little bit about the 
process that we undertook in going into China, which is prior 
to 2006 and launching our dot-cn product, which is censored. We 
found ourselves completely out of that market. For 
unexplainable reasons google.com would be blocked, with nothing 
getting through in China, much less politically sensitive 
material. And so what our senior executives wrestled with was 
would it be better to be there and be engaged and offer some 
level of information rather than to be completely blocked for 
reasons that we are completely unable to control?
    And the most persuasive people that we spoke to when we 
were wrestling with that were actually Chinese users in China 
who used the Internet extensively. They said, ``You will do 
more for us by being here than by staying out.'' The classic 
diplomatic question of engagement, which is--
    Chairman Durbin. I think I heard this same argument when it 
came to apartheid in South Africa, as to--
    Ms. Wong. Well, let me explain--
    Chairman Durbin.--whether we should impose sanctions, have 
normal relationships, or--and there were some who argued, well, 
wait a minute, if the United States does not trade with South 
Africa, the South African people will not have as many products 
to buy and it will be hurting them, and they are not the 
culprits. It is the government.
    Ms. Wong. And that is certainly a valid argument in that 
case. Here is what our experience has been, and the reason why 
they told us to be there is that they believe that we would 
provide competitive pressure to cause other companies to do 
better. So let me give you an example of how that is.
    When we went into China, we decided that if we were going 
to remove search results, we would have a notice at the bottom 
of the page. The notice basically says there are some search 
results which are not appearing because of local rules, laws, 
or regulations. There was no other search engine in China doing 
it at the time that we went into China. After we did it, the 
other major search engines in China are now having a similar 
type of notice. That is a level of transparency that lets 
Chinese users know, even if our U.S. service is blocked, that 
something is missing in their search results. And we think that 
that is real evidence that we being there has moved things in 
the right direction. It is imperfect, and we know that. But we 
do think that something about being there is right.
    One more example, because I think that it is appropriate 
that we focus on the very difficult issues of political 
censorship in China, which we disagree with completely. Having 
said that, there is also something about being there, about 
having our open search box for Chinese users to go and ask any 
question they want, to exercise the muscle of asking any 
question they want and seeing what results they get back. That 
in itself, we think, makes it worthwhile for us to have a 
presence there.
    Chairman Durbin. Mr. Samway, I would like your response to 
the same question.
    Mr. Samway. Thank you, Mr. Chairman. I also appreciate the 
opportunity now to talk a bit about the example that you raised 
on Tiananmen Square. Just below the surface in places like 
China, there is incredibly robust discussion, open discussion, 
and access to various subjects, whether they are local 
corruption, environmental issues, health issues. The recent 
earthquake in the Sichuan province is an example of how the 
Internet is transforming society in places like China.
    Senator Coburn made a reference that I thought was 
especially powerful when he noted that information itself is 
power, and that is what is available today more than ever 
before to Chinese citizens despite the best efforts of the 
government. We believe deeply in free expression and open 
access to information, and like other companies, we also 
believe philosophically that engagement is good.
    Chairman Durbin. So Dr. Zhou in his testimony, his full 
testimony, underscored the consequences of public censorship in 
another area we have not discussed--public health. He noted 
that the Chinese Government detained many people who attempted 
to disseminate information about the SARS epidemic in 2004. In 
2006, Amnesty International testified before Congress that over 
100 people had been arrested for ``spreading rumors'' about the 
SARS outbreak, which obviously affected people all over the 
world.
    So I guess my question to you is: You talk about the 
positive opportunities where the Internet can provide 
information, much like the early fax machines I referred to, 
that otherwise might not have been available. But how do you 
deal with the other side of that coin that Dr. Zhou raised? 
That is, when you are asked to be complicit through your 
companies in restricting the flow of information for the public 
good and public health, aren't your hands a little dirty at the 
end of the day if you participate in that? Mr. Samway?
    Mr. Samway. Well, Senator, it certainly is troubling, and 
we are troubled by the actions of the Chinese Government with 
respect to their own citizens. We take responsibility. We have 
learned valuable lessons, probably more than any other company 
in the room, and we are taking those lessons and implying them, 
taking individual steps and collective steps. We have been 
working, for example, as a participant in this broad-based 
global human rights dialog. Mr. Ganesan is one of the leading 
participants for the human rights groups. We believe collective 
action is critical. We also believe individual steps, 
independent of what we can do as a group of companies, are 
critical. We are taking this multi-pronged approach because we 
have learned important lessons.
    We also believe, as you know, Mr. Chairman, there is an 
inherent tension, there is always a tension in going into these 
emerging markets between opening up, allowing more access to be 
available, and what the government can do to try to control 
that access. And the SARS example I think is a very good one. 
At the end of the day, the government was unable to stop the 
tide of the flow of information, I believe, with respect to 
SARS. They tried to contain the health epidemic which 
threatened to become a global one, and ultimately, 
communication and awareness of the issue required them, 
essentially forced them, to come out into the open about the 
challenge.
    Chairman Durbin. Before we go into the second aspect here, 
the right of privacy of individuals, I want to stay on this 
topic and let Mr. Ganesan and Dr. Zhou comment on what you have 
heard. From what we are hearing from Google and Yahoo!, it is 
better that we are there than not being there. The people would 
rather have us there in the country even if there is 
censorship. We are notifying people that what we put on the 
Internet is censored. And isn't it at the end of the day a 
better policy to engage rather than to step back and disengage? 
Mr. Ganesan?
    Mr. Ganesan. Thank you. Well, I think that we all believe 
that the free flow of information is a good thing, wherever it 
is. But I would draw a very strong distinction between what the 
companies are saying and what is actually happening.
    There is censorship that a government imposes by taking 
down a website or blocking Internet access. Then there is 
censorship that a company does by its own discretion, which is 
what is happening with search engines in China. There is the 
firewall, and then there is the choice of companies to censor. 
And the disclaimer, which is now about 2 years old--because 
Google did talk about it at the first hearings on the Internet 
before--is basically telling people that we censor. It is not 
saying we are reducing censorship, which is a separate issue. 
And what we have tried to do, both in terms of regulation and 
pushing for legislation, as well as through a voluntary 
initiative, is saying disclosing censorship is not enough, but 
actually actively trying to reduce it to where your minimum 
level is whatever the government says it is. Nobody is going to 
find a company culpable if a government does like what they did 
in Burma in September 2007, which is physically disconnect 
telecommunications lines to prevent access. But where people 
are going to look askance at a company is when they choose what 
to censor and they decide, in anticipation of what the 
government wants, what to censor. And what we are trying to do 
is get at that problem, because we know governments are going 
to try to restrict the flow of information, but what we would 
like to see is companies go beyond the disclaimer and actually 
reduce the amount of censorship going through.
    Chairman Durbin. I am going to ask you about the code of 
conduct, and I want to come back to the Foreign Corrupt 
Practices Act, but first code of conduct. Why has this taken so 
long? Which companies are dragging their feet? What is the 
issue that has stopped our American companies from establishing 
a code of conduct so that we at least can say we are not being 
hypocritical, the values we have as Americans are reflected in 
our corporate behavior?
    Mr. Ganesan. The fundamental issue is a resistance to 
having some third party come in and actually attest that the 
companies are doing what they say they are doing. And I think 
the resistance from that is somewhat reflective--I think 
companies in general do not want to see third-party oversight--
and also misguided, because people forget that the reason we 
are calling for a code of conduct and independent monitoring is 
because when the companies were given discretion on censorship 
and user privacy, they did not perform that great. That is why 
we are here today. That is why we were here 2 years ago and the 
like.
    So now we need somebody else to step in just to attest to 
the public that, hey, this process is in place, and if they 
commit to doing this, we can actually show you in some way that 
they are actually implementing these things, because the code 
of conduct is not to assuage Human Rights Watch or anyone else; 
it is to assuage a 20-something blogger in a country that wants 
to speak out about his government, and he needs to know that he 
is not making a Faustian bargain with a U.S. company, which is 
in exchange for posting information that might be problematic 
for a government, that he is not going to do it on a service 
that actually turns that information over to a government or 
stops it from being posted.
    Chairman Durbin. So, Ms. Wong, Mr. Samway, why won't you 
agree to independent monitoring? Why is this code of conduct 
taking so long?
    Ms. Wong. Well, Mr. Chairman, we, in fact, were one of the 
founding companies to begin this discussion, and we are deeply 
committed to it. We have been at every meeting. We have been 
moving it along. And we agree, the 18 months has been a long 
process.
    Let me say two things very clearly. We would support an 
external audit. We are very optimistic that it will be 
finalized. Let me also say what our measure of success for this 
process would be. For us, the importance of having all of the 
companies and the addition of the human rights groups is not 
necessarily about looking at whether the companies are being 
held accountable to their processes. The point of having all of 
the companies stand together on important principles--like 
freedom of expression, requiring rule of law, you know, doing 
an assessment of the countries we go into--is so that the 
companies would stand together against the governments and hold 
the governments accountable. The measure of success of this 
process is whether we walk away with an ability to put pressure 
on governments to do the right thing. That is the problem that 
we are facing.
    Chairman Durbin. Mr. Samway, are you agreed to independent 
monitoring, external audits? Will Yahoo! sign up for that?
    Mr. Samway. Thank you, Mr. Chairman. I will tell you what I 
have said to Mr. Ganesan in our private meetings without, I 
think, breaking the trust of the group. We unequivocally 
support independent assessment of company activities.
    Chairman Durbin. Looks like we have an agreement, Mr. 
Ganesan. Bring out the papers and let's sign up.
    So what is the obstacle? Why is this still going on for 18 
months, the negotiations over a code of conduct?
    Mr. Samway. At Yahoo! we are ready to move forward, as I 
mentioned in my testimony.
    Chairman Durbin. Well, I hope that within the next 48 hours 
we will have an announcement. That would be terrific.
    Dr. Zhou, you have heard the companies explain that they 
believe they are doing the right thing by at least being in 
China, even if they are subject to the censorship standards and 
policies of that country. What is your reaction?
    Mr. Zhou. Mr. Chairman, I would like to make two points. 
First, for companies like Google and Yahoo!, I would say that 
their self-censorship in China can be more damaging than other 
kinds of censorship. This is because for Chinese people in such 
a closed society, they take Google and Yahoo! as role models of 
freedom of information. When they look at their websites and 
find the information, they believe it is factual and unbiased. 
Therefore for those not-so-much politically conscious people, 
this is deceiving--they get the information from Baidu, and get 
it from Google and Yahoo!, they compare them and conclude that, 
well, they are the same thing and that is the truth.
    The second point I want to make is that Google and Yahoo! 
do not have to bend their knees to enter China. They can just 
upright and walk into China by bringing down the firewall. They 
can achieve this by either supporting companies like us or 
finding their own way.
    Chairman Durbin. Let me go to the second issue that I 
raised, the rights of the individual. Mr. Samway, it is my 
understanding that at the request of China, your company, 
Yahoo!, disclosed the identity of a person, Shi Tao, who was 
then later prosecuted, convicted, and imprisoned. Can you tell 
me, what kind of standards would Yahoo! use to decide that one 
of your customers should be subject to that sort of prosecution 
for what would be innocent conduct here in the United States?
    Mr. Samway. Let me begin, Mr. Chairman, by saying that it 
is deeply troubling that people have gone to jail as a result 
of some connection to our company. We have also tried to take 
steps specifically with Mr. Shi. In particular, we have settled 
a lawsuit. We have also announced the Human Rights Fund and 
have been working closely with Harry Wu, a noted activist and 
human rights dissident based here in Washington, to create this 
fund to provide humanitarian assistance for dissidents such as 
Mr. Shi and other dissidents who have been imprisoned for 
expressing their views online.
    Chairman Durbin. And so tomorrow if Yahoo! had a similar 
request from the Chinese Government to disclose the identity of 
someone who had been involved in what they considered to be 
illegal conduct or misconduct, what would your company do?
    Mr. Samway. Well, as you know, Mr. Chairman, we currently 
have an investment in a company that runs the day-to-day 
operations of Yahoo! China. That company complies with the law, 
as would any Chinese company. Again, we are deeply troubled by 
the consequences of the restrictions on access to information 
and also the attempts by the government to seek disclosure of 
data on its own users.
    Chairman Durbin. So you own 40 percent of the company, 
which if it received a request, I take it from what you said 
they would disclose the name of the person. Is that true?
    Mr. Samway. Mr. Chairman, you make a good point about 
compliance with the law, which any Chinese company would be 
required to do in this case. Frequently, sir, it is not the 
name of the person. There is a request that comes in for a user 
ID that is not always identifiable to the person him- or 
herself. But, again, to us it is deeply troubling, and as I 
mentioned, we take responsibility for our own actions. We have 
learned valuable lessons, and we also want to take concrete 
steps working with partners, working on our own, to make 
responsible decisions in the future, to be a leader in human 
rights.
    And to give you one example, we currently conduct--and I 
think we may be the only company to publicly announce and 
commit to this--a human rights impact assessment before 
entering any market, and it covers the two pillars that you 
mentioned: free expression, which goes to censorship;, and user 
trust, which goes to privacy. We assess what the potential 
intersection points are with our products in the current human 
rights landscape in the country and design mitigation 
strategies to address those issues.
    Chairman Durbin. Well, I am still a little bit troubled by 
this, because as I understand what you have told me, it is that 
you have enlisted Mr. Wu, who is widely respected, and others. 
You have made investments, dollar investments, in human rights 
funds to support the families of those who are imprisoned. And 
you are committed to human rights. But at least through the 
company that you own a 40-percent share of, you are going to 
have a booming business with your human rights assistance fund 
because as you turn over more and more Chinese who are using 
your product for prosecution, there will be more need for 
assistance for their families.
    I am struggling with trying to reconcile here what your 
corporate goal is and your corporate image in this debate.
    Mr. Samway. Well, as I mentioned, Mr. Chairman, our 
founding principles include promoting access to information. 
With respect to Alibaba, we also have exerted our influence 
with respect to the free flow of information in China. And to 
give two examples, one relates to search disclosure, and that 
is, notice to users on all search pages of Yahoo! China that 
certain results do not appear. There is also a notice on the 
registration page of Yahoo! China that indicates that the 
product itself is subject to PRC law. Now, those are forms of 
influence that we have tried to exert. It is a complex 
relationship, certainly, and Yahoo! China makes its own 
decisions day to day, not at the request of our team at Yahoo! 
But certainly we can exert influence; we have and will continue 
to explore avenues to exert that influence with respect not 
just to censorship but to the privacy issue you raise.
    Chairman Durbin. Ms. Wong, how does Google deal with its 
so-called complex relationship when it comes to disclosing the 
identity of your users?
    Ms. Wong. So we go through a similar struggle in terms of 
thinking through which countries we will enter and what 
services we will make available. And as I mentioned during my 
earlier testimony, in China we made a decision to launch only 
certain services. We do not offer Gmail or Blogger on our dot-
cn, our Chinese service, specifically for the reason that we do 
not want to be in the position of potentially compromising 
someone engaged in political dissent.
    Chairman Durbin. So Google decided they would rather not do 
business in those areas which were most likely to be 
compromised by Chinese law.
    Ms. Wong. That is correct.
    Chairman Durbin. Mr. Samway, Yahoo! decided they would do 
business but through another company, and let me ask you: Was 
there a sensitivity to this same issue? You realized you were 
walking into areas with e-mail and blogging most likely to be 
monitored and prosecuted by the Chinese Government, but decided 
for economic reasons to do it anyway?
    Mr. Samway. If I can give some context to the timeframe, we 
feel like we were Internet pioneers and moved in, in the late 
1990s in the market, indeed before other companies even existed 
in the technology space. We moved into China to expand 
information, to expand the availability of information. We 
moved in at a time, as you know, Mr. Chairman, when the U.S. 
Congress was normalizing trade relations with China, 
encouraging not only American companies generally but American 
technology companies specifically to go into this market, to 
explore it. As a young company, but 5 years old at the time, we 
entered this market--again, as a trailblazer, as a pioneer. And 
as I mentioned, we have learned tough and valuable lessons. We 
are also taking those lessons and enacting concrete steps to 
build capacity, not to gather a group of smart people around a 
table and figure out what the future of the Internet should 
look like, but building real infrastructure into the company's 
DNA so that we can make responsible decisions on human rights.
    Chairman Durbin. Ms. Wong, I want to make sure the record 
is complete here. I have talked to Mr. Samway about a company 
in which they have an investment. Google has an investment in 
Baidu, which is the largest Chinese search engine.
    Ms. Wong. We do not have an investment in Baidu.
    Chairman Durbin. You do not?
    Ms. Wong. No.
    Chairman Durbin. I am sorry. Do you have an investment in 
any other--
    Ms. Wong. I believe we did previously and sold off that 
investment a few years ago. I can check that out for you.
    Chairman Durbin. OK. Let me ask, then, on the Foreign 
Corrupt Practices Act. Mr. Ganesan has raised that, and I do 
not know that it is a complete analogy, but it is an 
interesting analogy. In 1977, we passed a law, the Foreign 
Corrupt Practices Act, which is aimed at stopping U.S. 
participation in bribery and other corrupt practices of foreign 
governments. When the law was first proposed, it was criticized 
by the business community at the time. Congress recognized the 
importance of stopping American involvement in these practices 
that went against our values as a country. The Act has lessened 
U.S. involvement in supporting corruption around the world, and 
what is more, it led to several international agreements and 
conventions to stop bribery and corruption internationally. 
When we took the first step against this, much of the world was 
skeptical, but then followed suit.
    So let me ask both Ms. Wong, Mr. Samway, and Mr. Chandler: 
Do you see Mr. Ganesan's suggestion that we should pursue 
something along the lines of the Foreign Corrupt Practices Act 
to be analogous to what we are discussing here? Is it a way for 
us to declare that certain practices of foreign governments are 
inconsistent with the values of our country and can even be 
prosecuted in our country? Mr. Samway?
    Mr. Samway. Thank you, Mr. Chairman. I have to admit that I 
am not expert enough on the Foreign Corrupt Practices Act 
itself to know the details to be able to compare. I will say 
that I think there are four important points in addressing this 
issue, one of which gets to the point you make on legislation.
    The first is for the government, the U.S. Government, 
collectively for governments around the world, to make Internet 
freedom a priority. There are different ways to do that. Again, 
governments have different tools in the toolbox to do that.
    The second way is for companies to build capacity on their 
own. We do not need to wait for a collective process, and I 
agree, independent assessment has been a point that has held us 
up recently. At the same time, this most meaningful part of 
collective action is really about companies building capacity 
to make responsible decisions. Independent assessment is 
important. There are clear practical limitations. That is 
exactly what we struggle with, what we have been focused on 
most intensively, I would say, in the past few months.
    The third area where we can really create change is around 
collective action, and that is getting to yes in this global 
code of conduct, where we have a collaborative process with 
companies, human rights groups, academics sharing, learning, 
and helping to understand the challenges of the problem.
    The fourth area, which I think gets to your point, Mr. 
Chairman, is legislation. We support backstop legislation, 
something that protects U.S. companies, but not legislation 
that puts us in the untenable position of having to choose to 
violate a local law or choose to violate U.S. law. That is not 
sustainable or tenable for a U.S. company, and then we get back 
to the philosophical debate on engagement. And a company will 
ultimately have to choose not to go in.
    We support engagement. We support legislation that allows 
companies to act responsibly, that has appropriate limitations, 
and a clear enough depth of understanding of what the 
challenges are we face on the ground.
    Chairman Durbin. So, Mr. Ganesan, doesn't that get to the 
crux of it here? When it came to foreign corrupt practices, we 
were dealing with issues that were nominally criminal already 
in the countries where they were being performed. In this 
situation, we are dealing with practices, such as censorship, 
which are nominally legal in the countries where we are finding 
it. Isn't that a critical difference?
    Mr. Ganesan. It is a difference, but there are ways to deal 
with it. I mean, there are two elements of the Foreign Corrupt 
Practices Act. One is punishing someone for the act committed, 
and the other one--and this is what is important in this 
context--is ensuring that the companies have the systems or the 
capacity in place to prevent that act from occurring. So say we 
take user privacy and freedom of expression, non- censorship. 
We can certainly devise standards, in the voluntary process or 
otherwise, on what a company should be doing to reduce or 
minimize the risk of that happening, just like the Foreign 
Corrupt Practices Act does with bribery. And we can legislate 
in a way that companies are bound to show that they are taking 
those steps internally to reduce censorship and reduce the risk 
to user privacy.
    Now, on the flip side, what happens when a company is in 
conflict with the local law? The Global Online Freedom Act 
tries to set out a process in which a questionable request from 
an Internet-restricting country, as designated by the Act and 
designated by the government authority within the Act, will--
instead of having the company have to say no to that 
government, it sets out a process where the U.S. Government 
steps in and deals with it in a diplomatic manner.
    So, in other words, in a sense it raises the transaction 
cost for the repressive government because now instead of 
bullying a company, it has to go to the U.S. Government and 
deal with it in a diplomatic manner. And in a sense, it can 
reduce the transaction cost for an individual company, because 
it can say to them, much like companies have told us about the 
Foreign Corrupt Practices Act, Hey, I cannot make this decision 
myself, I have to refer it to the U.S. Embassy or the U.S. 
Government entity within the Act.
    Now, that is, to our knowledge, a way to address the issue. 
And, yes, there may be certain downsides to it, but instead of 
dismissing it as saying it is a conflict of laws or some other 
problem, I would challenge companies to come up with an 
effective alternative that meets the same objectives and 
propose it as legislation, rather than only looking at what the 
negatives of existing proposals are. I mean, we are more than 
happy to work with companies to think about that, but we think 
it needs to be there, because we need to change the dynamics. 
Because as long as the dynamic is a company having to deal with 
a Government about a repressive request, with no backstop, 
whether it is the U.S. Government or anything else, we are 
going to have this dynamic endlessly. So we need to change the 
rules in some way.
    Chairman Durbin. So, Ms. Wong, does that create a Catch- 22 
for your company if they comply with the Chinese standards in 
censorship and there is a law in the United States which says 
that is a criminal act? How do you deal with that?
    Ms. Wong. There would absolutely be a tension, and we have 
worked through that not just with China, but with many other 
countries around the world that assert their jurisdiction on 
the same areas.
    Having said that, Mr. Chairman--and I am glad you raised 
it, because we have talking about it at our company, at our 
senior executive level, over the last several weeks--we would 
support legislation in this area because we do feel like it is 
the thing that will bring all the companies to the same place. 
It may be the most effective way to deal with the other 
countries.
    Chairman Durbin. So let me ask two wrap-up questions here 
of things that still I have a question in my mind that you 
testified to. Reporters Without Borders notes that Google is 
financing Baidu, the Chinese company that is a market leader in 
search engines. And you are saying that is not true.
    Ms. Wong. We are not investors in Baidu.
    Chairman Durbin. OK. And, second, when it came to the code 
of conduct, as I understand it, Yahoo! said they would sign 
onto the code as is, and I think your statement was that you 
supported external audits. So would you accept the code of 
conduct as it currently is written?
    Ms. Wong. We have put another proposal on the table. It 
involves external audits. I think that that is what we are 
currently working with the human rights groups on the nature of 
those audits, what is measured, how it is measured, who does 
the measuring. But we are confident that that will get 
finalized. We are optimistic it will get finalized.
    Chairman Durbin. And you can be confident that we are going 
to be watching you to make sure it does get finalized. After 18 
months in this lightning fast communications world that we live 
in, what is slowing this down? Please, I hope that everyone 
will work in good faith to complete it.
    Thank you for this fascinating and interesting panel, and 
the very expert testimony we received today. As I said, the 
hearing record is going to remain open for a week for 
additional materials from interested individuals and questions 
for the witnesses.
    At the end of the day, I am going to be sitting down with 
Senator Brownback to--or, pardon me, Senator Coburn--and 
Senator Brownback, for that matter--to discuss whether we are 
going to introduce legislation similar to that pending in the 
House or craft our own along these lines. I really think this 
is a critical area that we need to address forthrightly and 
honestly.
    I want to salute some unsung heroes on my staff: Joe Zogby, 
who inspired me to ask for this Subcommittee and has been my 
leader on so many of these issues; Talia Dubov; Jaideep Dargan; 
Reema Dodin; Corey Clyburn, a legal intern; and Heloisa Griggs. 
They have done an awful lot of work to make this hearing a 
success.
    Thank you all for being here. There will be statements for 
the record from a number of organizations that will be entered 
without objection, and since there is no one here to object, so 
ordered. The Subcommittee stands adjourned.
    [Whereupon, at 11:55 a.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.] 
[GRAPHIC] [TIFF OMITTED] 45688.001

[GRAPHIC] [TIFF OMITTED] 45688.002

[GRAPHIC] [TIFF OMITTED] 45688.003

[GRAPHIC] [TIFF OMITTED] 45688.004

[GRAPHIC] [TIFF OMITTED] 45688.005

[GRAPHIC] [TIFF OMITTED] 45688.006

[GRAPHIC] [TIFF OMITTED] 45688.007

[GRAPHIC] [TIFF OMITTED] 45688.008

[GRAPHIC] [TIFF OMITTED] 45688.009

[GRAPHIC] [TIFF OMITTED] 45688.010

[GRAPHIC] [TIFF OMITTED] 45688.011

[GRAPHIC] [TIFF OMITTED] 45688.012

[GRAPHIC] [TIFF OMITTED] 45688.013

[GRAPHIC] [TIFF OMITTED] 45688.014

[GRAPHIC] [TIFF OMITTED] 45688.015

[GRAPHIC] [TIFF OMITTED] 45688.016

[GRAPHIC] [TIFF OMITTED] 45688.017

[GRAPHIC] [TIFF OMITTED] 45688.018

[GRAPHIC] [TIFF OMITTED] 45688.019

[GRAPHIC] [TIFF OMITTED] 45688.020

[GRAPHIC] [TIFF OMITTED] 45688.021

[GRAPHIC] [TIFF OMITTED] 45688.022

[GRAPHIC] [TIFF OMITTED] 45688.023

[GRAPHIC] [TIFF OMITTED] 45688.024

[GRAPHIC] [TIFF OMITTED] 45688.025

[GRAPHIC] [TIFF OMITTED] 45688.026

[GRAPHIC] [TIFF OMITTED] 45688.027

[GRAPHIC] [TIFF OMITTED] 45688.028

[GRAPHIC] [TIFF OMITTED] 45688.029

[GRAPHIC] [TIFF OMITTED] 45688.030

[GRAPHIC] [TIFF OMITTED] 45688.031

[GRAPHIC] [TIFF OMITTED] 45688.032

[GRAPHIC] [TIFF OMITTED] 45688.033

[GRAPHIC] [TIFF OMITTED] 45688.034

[GRAPHIC] [TIFF OMITTED] 45688.035

[GRAPHIC] [TIFF OMITTED] 45688.036

[GRAPHIC] [TIFF OMITTED] 45688.037

[GRAPHIC] [TIFF OMITTED] 45688.038

[GRAPHIC] [TIFF OMITTED] 45688.039

[GRAPHIC] [TIFF OMITTED] 45688.040

[GRAPHIC] [TIFF OMITTED] 45688.041

[GRAPHIC] [TIFF OMITTED] 45688.042

[GRAPHIC] [TIFF OMITTED] 45688.043

[GRAPHIC] [TIFF OMITTED] 45688.044

[GRAPHIC] [TIFF OMITTED] 45688.045

[GRAPHIC] [TIFF OMITTED] 45688.046

[GRAPHIC] [TIFF OMITTED] 45688.047

[GRAPHIC] [TIFF OMITTED] 45688.048

[GRAPHIC] [TIFF OMITTED] 45688.049

[GRAPHIC] [TIFF OMITTED] 45688.050

[GRAPHIC] [TIFF OMITTED] 45688.051

[GRAPHIC] [TIFF OMITTED] 45688.052

[GRAPHIC] [TIFF OMITTED] 45688.053

[GRAPHIC] [TIFF OMITTED] 45688.054

[GRAPHIC] [TIFF OMITTED] 45688.055

[GRAPHIC] [TIFF OMITTED] 45688.056

[GRAPHIC] [TIFF OMITTED] 45688.057

[GRAPHIC] [TIFF OMITTED] 45688.058

[GRAPHIC] [TIFF OMITTED] 45688.059

[GRAPHIC] [TIFF OMITTED] 45688.060

[GRAPHIC] [TIFF OMITTED] 45688.061

[GRAPHIC] [TIFF OMITTED] 45688.062

[GRAPHIC] [TIFF OMITTED] 45688.063

[GRAPHIC] [TIFF OMITTED] 45688.064

[GRAPHIC] [TIFF OMITTED] 45688.065

[GRAPHIC] [TIFF OMITTED] 45688.066

[GRAPHIC] [TIFF OMITTED] 45688.067

[GRAPHIC] [TIFF OMITTED] 45688.068

[GRAPHIC] [TIFF OMITTED] 45688.069

[GRAPHIC] [TIFF OMITTED] 45688.070

[GRAPHIC] [TIFF OMITTED] 45688.071

[GRAPHIC] [TIFF OMITTED] 45688.072

[GRAPHIC] [TIFF OMITTED] 45688.073

[GRAPHIC] [TIFF OMITTED] 45688.074

[GRAPHIC] [TIFF OMITTED] 45688.075

[GRAPHIC] [TIFF OMITTED] 45688.076

[GRAPHIC] [TIFF OMITTED] 45688.077

[GRAPHIC] [TIFF OMITTED] 45688.078

[GRAPHIC] [TIFF OMITTED] 45688.079

[GRAPHIC] [TIFF OMITTED] 45688.080

[GRAPHIC] [TIFF OMITTED] 45688.081

[GRAPHIC] [TIFF OMITTED] 45688.082

[GRAPHIC] [TIFF OMITTED] 45688.083

[GRAPHIC] [TIFF OMITTED] 45688.084

[GRAPHIC] [TIFF OMITTED] 45688.085

[GRAPHIC] [TIFF OMITTED] 45688.086

[GRAPHIC] [TIFF OMITTED] 45688.087

[GRAPHIC] [TIFF OMITTED] 45688.088

[GRAPHIC] [TIFF OMITTED] 45688.089

[GRAPHIC] [TIFF OMITTED] 45688.090

[GRAPHIC] [TIFF OMITTED] 45688.091

[GRAPHIC] [TIFF OMITTED] 45688.092

[GRAPHIC] [TIFF OMITTED] 45688.093

[GRAPHIC] [TIFF OMITTED] 45688.094

[GRAPHIC] [TIFF OMITTED] 45688.095

[GRAPHIC] [TIFF OMITTED] 45688.096

[GRAPHIC] [TIFF OMITTED] 45688.097

[GRAPHIC] [TIFF OMITTED] 45688.098

[GRAPHIC] [TIFF OMITTED] 45688.099

[GRAPHIC] [TIFF OMITTED] 45688.100

[GRAPHIC] [TIFF OMITTED] 45688.101

[GRAPHIC] [TIFF OMITTED] 45688.102

[GRAPHIC] [TIFF OMITTED] 45688.103

[GRAPHIC] [TIFF OMITTED] 45688.104

[GRAPHIC] [TIFF OMITTED] 45688.105

[GRAPHIC] [TIFF OMITTED] 45688.106

[GRAPHIC] [TIFF OMITTED] 45688.107

[GRAPHIC] [TIFF OMITTED] 45688.108

[GRAPHIC] [TIFF OMITTED] 45688.109

[GRAPHIC] [TIFF OMITTED] 45688.110

[GRAPHIC] [TIFF OMITTED] 45688.111

[GRAPHIC] [TIFF OMITTED] 45688.112

[GRAPHIC] [TIFF OMITTED] 45688.113

[GRAPHIC] [TIFF OMITTED] 45688.114

[GRAPHIC] [TIFF OMITTED] 45688.115

[GRAPHIC] [TIFF OMITTED] 45688.116

[GRAPHIC] [TIFF OMITTED] 45688.117

[GRAPHIC] [TIFF OMITTED] 45688.118

[GRAPHIC] [TIFF OMITTED] 45688.119

[GRAPHIC] [TIFF OMITTED] 45688.120

[GRAPHIC] [TIFF OMITTED] 45688.121

[GRAPHIC] [TIFF OMITTED] 45688.122

[GRAPHIC] [TIFF OMITTED] 45688.123

[GRAPHIC] [TIFF OMITTED] 45688.124

[GRAPHIC] [TIFF OMITTED] 45688.125

[GRAPHIC] [TIFF OMITTED] 45688.126

[GRAPHIC] [TIFF OMITTED] 45688.127

[GRAPHIC] [TIFF OMITTED] 45688.128

[GRAPHIC] [TIFF OMITTED] 45688.129

[GRAPHIC] [TIFF OMITTED] 45688.130

[GRAPHIC] [TIFF OMITTED] 45688.131

[GRAPHIC] [TIFF OMITTED] 45688.132

                                 <all>

</pre></body></html>
